<html>
<title> - AFTER BALI: THE U.N. CONFERENCE AND ITS IMPACT ON INTERNATIONAL CLIMATE CHANGE POLICY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
AFTER BALI: THE U.N. CONFERENCE AND ITS IMPACT ON INTERNATIONAL CLIMATE 
                             CHANGE POLICY 

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 19, 2007

                               __________

                           Serial No. 110-21




             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming
                        globalwarming.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-415 PDF                       WASHINGTON : 2010

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov For more information, contact the GPO 
Customer Contact Center, U.S. Government Printing Office, Phone 
202-512-1800 or 866-512-1800 (toll free), E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6">[email&#160;protected]</a>

























                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director
                            C O N T E N T S

                               __________
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     6
Hon. Jay R. Inslee, a Representative in Congress from the State 
  of Washington, opening statement...............................     6
Hon. Stephanie Herseth Sandlin, a Representative in Congress from 
  the State of South Dakota, opening statement...................     7
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     8
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement,.................................     8
    Prepared statement...........................................    10
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................    13
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    13

                               Witnesses

Mr. Alden Meyer, Director of Strategy and Policy, Union of 
  Concerned Scientists...........................................    15
    Prepared statement...........................................    18
Mr. Philip Clapp, Managing Director, Pew Environmental Group.....    31
    Prepared statement...........................................    33
Ms. Christiana Figueres, Official Negotiator, U.N. Framework 
  Convention on Climate Change and the Kyoto Protocol, Costa Rica    43
    Prepared statement...........................................    45
Mr. Ned Helme, President, Center for Clean Air Policy............    49
    Prepared statement...........................................    52
Mr. Myron Ebell, Director, Energy and Global Warming Policy, 
  Competitive Enterprise Institute...............................    75
    Prepared statement...........................................    77

                          Submitted Materials

The Climate Change and Energy Security Challenge, Stephen D. 
  Eule, U.S. Dept. of Energy, November 29, 2007..................   101
EPA Analysis of Bingaman-Specter Request on Global CO<INF>2</INF> 
  Concentrations, U.S. EPA, Office of Atmospheric Programs, 
  October 1, 2007................................................   120
Stabilizing CO<INF>2</INF> Concentrations with Incomplete 
  International Cooperation, Edmonds, Clarke, Lurz, and Wise, 
  U.S. Dept. of Energy, October 2007.............................   127
``Europe's Dirty Secret: Why the EU Emissions Trading Scheme 
  Isn't Working'', Open Europe, August 2007......................   156


AFTER BALI: THE U.N. CONFERENCE AND ITS IMPACT ON INTERNATIONAL CLIMATE 
                             CHANGE POLICY

                              ----------                              


                      WEDNESDAY, DECEMBER 19, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:05 p.m. in Room 
2318, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Herseth Sandlin, Cleaver, Hall, McNerney, Sensenbrenner, 
Walden, and Blackburn.
    Staff present: Morgan Gray, Joel Beauvais, and Ana Unruh 
Cohen.
    The Chairman. This hearing of the Select Committee on 
Energy Independence and Global Warming is called to order.
    During the last 2 weeks, delegates from more than 180 
nations, including the United States, met in Bali, Indonesia, 
to begin the process of developing a post-2012 worldwide 
agreement to reduce global warming pollution. This past 
Saturday, these delegates adopted the Bali Action Plan, which 
puts in place a road map for negotiations over the next 2 
years. This road map has been criticized for being too weak, 
too fuzzy and inadequate for leading us out of the climate 
wilderness. Today's hearing will shine a light on the Bali 
agreement and give us a sense of whether we are headed toward 
climate catastrophe or climate responsibility.
    The Bali Action Plan rests on four key pillars of climate 
policy: reduction of global warming pollution, adaptation to 
global warming impacts, technology development and transfer to 
developing countries, and financial investment to aid 
developing countries.
    This road map appears to represent real progress in a 
number of key areas. Most importantly, it marks the first time 
that developing countries have agreed to consider taking 
actions to reduce their global warming pollution. The road map 
also increases the focus on adapting to the impacts of global 
warming that the world can no longer avoid. It recognizes the 
need to develop and deploy clean technology and steer global 
investment toward low-carbon ventures, as well as the 
importance of avoiding tropical deforestation in combatting 
global warming.
    The Bali Action Plan achieved these important steps forward 
despite being weakened by the continued opposition of the Bush 
administration. Initial drafts of the road map included 
language based on the latest science that recognized the need 
for global heat-trapping emissions to peak within the next 10 
to 15 years before declining by more than half by 2050, with 
developing countries reducing emissions 25 to 40 percent below 
1990 by 2020.
    In the face of opposition from Bush administration 
negotiators backed by Japan, Russia and Canada, this action was 
dropped from the final action plan. These science-based guides 
to emission targets were relegated from front and center to a 
footnote in the final document.
    Although inclusion of these guides would have strengthened 
the road map, the leaders gathered at Bali did succeed in 
opening the door to negotiations on a new global agreement. 
These negotiations represent an opportunity to address global 
warming comprehensively, but we still need global leadership to 
realize this opportunity.
    One message that emerged from the world's leaders in Bali 
is that we cannot afford to wait any longer to take 
international action to address global warming. The question 
now is whether the Bush administration will continue to be a 
roadblock on this new path.
    In the meantime, Congress has taken the critical first step 
to reduce our global warming pollution by passing a Democratic 
energy bill, which President Bush signed today. That raises the 
fuel economy standards of our vehicles for the first time in 
over 30 years and puts our national energy policy back on 
track. The energy bill is an important downpayment on solving 
the climate crisis, reducing U.S. global warming emissions by 
up to a quarter of what is needed to save the planet by 2030.
    In the new year, Congress will begin work on a cap, auction 
and trade bill which will achieve the balance of the reductions 
needed and demonstrate the U.S. leadership that is essential to 
reach a global agreement under which all countries take action.
    We are fortunate to have an outstanding panel of experts on 
the U.N. climate negotiations with us today. Many of our 
witnesses were in Bali, participating in the negotiations, and 
have graciously agreed to join us so soon after returning.
    I look forward to hearing all of your thoughts on the 
outcome of the Bali conference and the next steps for 
international climate negotiations.
    I would now like to recognize the ranking member of the 
committee, the gentleman from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Last week in Bali, Indonesia, a speaker at the U.N. climate 
change conference had some pointed comments about what must 
happen in order to achieve a meaningful agreement on global 
warming. The speaker had firsthand knowledge of the political 
landscape in the United States.
    The speaker said that international negotiators had to move 
away from failures that have hampered global warming talks 
since the U.N. framework convention on climate change had its 
first meeting in Berlin 12 years ago in 1995. The speaker, 
referring to the so-called Berlin mandate, said that the 
meeting put in place an inadequate process that exempted China, 
India and other developing nations from taking significant 
steps to reduce emissions by exempting these nations. The 
speaker said it made the subsequent Kyoto Treaty impossible to 
ratify in the United States Senate.
    The speaker warned that negotiators in Bali must not make 
the same mistake of exempting China and India and other 
developing nations. The speaker said that many in the United 
States were ready to move forward with substantial greenhouse 
gas reductions but not, and I quote, ``without the knowledge 
that other folks are cutting in a way that is meaningful,'' 
unquote. The speaker wisely said that technology transfer and 
assistance with developing countries is crucial. To quote the 
speaker again, quote, ``The industrial world can't do it 
alone,'' unquote.
    And while that speaker at Bali and I disagree on many 
global warming policy proposals, I am pleased that my 
Chairman's own junior Senator, John Kerry of Massachusetts, 
grasped the importance of enjoining China and India in the 
process.
    Senator Kerry's statements are a breath of cool, fresh air 
when compared to those of another American who spoke in Bali. 
While Senator Kerry laid out conditions that must be met in 
order for a global warming treaty to be approved by the United 
States Senate, another former presidential candidate simply 
laid blame for lack of promise at the feet of America. And 
while Vice President Al Gore was calling America the 
obstructionist at the Bali conference, he failed to notice that 
other nations were joining the United States in opposing the 
mandatory reduction targets in the Bali road map.
    Mr. Gore also failed to acknowledge that China and India 
initially refused to commit to taking actions on their own to 
reduce emissions before eventually accepting that they need to 
be part of the solution too. And I am very pleased that China 
and India agreed to language in the Bali road map for, quote, 
``nationally appropriate mitigation actions that must be 
measurable, reportable and verifiable.''
    While there are some provisions in the Bali road map that 
raise concern, I think overall it is a good agreement. 
Negotiators have given policymakers all over the world the time 
to promote the development of technology that will make 
emissions restrictions achievable without damaging the economy 
and hurting jobs and thus making those restrictions and changes 
politically untenable in any democratic country in the world.
    If China and India were willing to work with the 
international community, it is possible to develop the 
meaningful climate change treaty that creates real 
environmental benefits, protects jobs in the economy and 
advances technology. Without China and India, any global 
warming treaty would simply be an invitation for manufacturers 
to move their options to these unregulated economies. And where 
would our economy and environment be?
    I opposed the Kyoto Treaty from the start because I knew 
what we were getting into with that flawed agreement. And I am 
disappointed that there are those in this country that did not 
heed what Senator Kerry said then and what he said 10 years ago 
when the Byrd-Hagel resolution came up.
    And because those cautions were not heeded, the Senate 
didn't ratify the treaty, and eventually we lost at least a 
decade and probably more in reaching an agreement that could be 
worldwide in application, was technology-based and which would 
be politically acceptable, both in this democracy as well as in 
other democracies around the world.
    I hope that this road map from Bali can start us on the 
path toward a more realistic and effective global emissions 
reduction solutions, but I must caution everybody that if we 
fall into the trap of what caused Kyoto to fail, then we will 
be losing even more time in this fight.
    I thank the gentleman, and I yield back the balance of my 
time.
    The Chairman. Great. The gentleman's time has expired, and 
the Chair recognizes the gentleman from Oregon, Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. I am looking 
forward to this hearing today so that we can learn about what 
happened in Bali and what we do with that experience.
    The good news is that that will be the last international 
gathering of that scope where the United States is totally 
isolated from not just the rest of the developed world, but 
probably the rest of the world in total. And I count that as a 
singular bright spot.
    But just because we have been isolated does not mean that 
we haven't a great deal of leadership going on in this country. 
And I appreciate the reference to Al Gore, so derided by some 
as ``the ozone man,'' who has had a consistent message for 
years and is now recognized globally for being right and being 
effective in moving us in the right direction. We also have a 
great cross-section of people who have been involved with the 
leadership in this country, a slice of what is happening in 
terms of the NGOs, the private sector, unions, over 750 cities, 
which I find extraordinarily exciting.
    There is still time for this Congress, under the leadership 
of you, Mr. Chairman, and this committee and others, to be able 
to have singular accomplishments before we conclude. And I 
think the combination of what has happened in Bali, the 
international consensus, the leadership on the ground, means 
that it is much more likely that the focus of this election is 
going to mean that not only will we make some success in 2008, 
but the stage will be set for a new era of American policy.
    And I look forward to starting to get a glimpse of some of 
the specifics, as we listen to our witnesses here today.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    As far as when we talk about the road from Bali, I just 
want to note that this is moving so fast, both in the wrong 
direction and the right direction, that we ought to have both 
concern and optimism.
    It is moving in the wrong direction because the science, as 
we know, is astoundingly rapid at giving us signals that things 
are going out there, particularly feedback mechanisms in the 
far north, that are 20 times disturbing as they were 2 or 3 
years ago.
    The good news is that the people of this country are 
changing so rapidly on this issue and the science of the 
technology of dealing with energy solutions to this are 
becoming so available to us that we ought to have some optimism 
following Bali.
    And I just want to tell one little story why we ought to 
have optimism. About 3 years ago, I asked former Vice President 
Al Gore to address our colleagues about this issue. It was 
about 3 years ago, and it was in this building. And we asked 
all the Members of the House of Representatives to come listen 
to him. Four members of the United States House of 
Representatives showed up to listen to the former Vice 
President of the United States. Now the world is giving him the 
Nobel Peace Prize.
    And I encourage anyone who is interested in this subject to 
read his speech at Bali. It was a work of genius, and it is a 
mark not just of individual achievement but a global action. 
And I just think we ought to come away from Bali with a sense 
of optimism to see how fast things are changing.
    And, with that, I will yield back my time.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes Ms. Herseth Sandlin from South Dakota.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    I want to thank all of our witnesses for their 
participation in Bali and for being here today. I apologize I 
won't be able to stay for the testimony, but I, again, wanted 
to thank you for taking the time to talk about the next steps 
and the work of this select committee and the priority of the 
110th Congress and continuing to make progress domestically as 
well as working with international partners in sharing 
information.
    And I would have to share--I want to reiterate the 
statement made by Mr. Inslee about having some optimism. While 
there are going to be different interpretations about the road 
map itself and how it compares to the objectives of the 
conference, I do think that hopefully we can at least agree 
that the road map has us going in the right direction. We are 
not off-course. We have made some progress in the last couple 
of years, at least acknowledging with what the science has 
provided and the negotiations over the last couple of weeks of 
the direction we need to go.
    But in the 3\1/2\ years that I have been in Congress, I 
have watched a dramatic shift in one area in particular. As Mr. 
Inslee was describing, in terms of how fast things are 
changing, not only in terms of the science, but the political 
views that people have about certain things, where they may 
have had a certain position over the last 10 to 15 years and 
now all of a sudden they are changing their positions, as my 
friend from New York, Mr. Eliot Engel, has done on the issue of 
biofuels.
    And so, when we have gone from huge resistance to biofuels 
in some corners to a signing of a bill that has a 36-billion-
gallon target by 2022, addressing, as we will have to, some of 
the issues that will arise over the next few years, again, we 
should have some optimism that we are going in the right 
direction, that there is more progress to be made, but we still 
haven't yet agreed on the precise destination we are trying to 
get to.
    But I have no doubt that over the next few months, and 
certainly heading into the next year or 2, that we will 
continue to make progress. And we appreciate the strong efforts 
that all of you have made in getting us to the consensus that 
we have achieved thus far and the consensus that we hope to 
achieve in the months ahead.
    So, again, I thank you all for being here. We look forward 
to working with you as we figure out the destination.
    Thank you. I yield back.
    The Chairman. The gentleman from Oregon is recognized.
    Mr. Walden. Mr. Chairman, thank you. I am going to waive my 
opening statement and look forward to hearing the testimony of 
the witnesses.
    The Chairman. The Chair recognizes the gentleman from 
Missouri, Mr. Cleaver.
    Mr. Cleaver. I, too, would waive my opening comments. I am 
extremely interested in hearing from the panelists on whether 
or not they view this major economy's process as being 
competitive with the Kyoto Protocol or, maybe more 
significantly, whether or not it is undermining the Kyoto 
Protocol.
    So thank you, Mr. Chairman, for calling this hearing, and I 
look forward to hearing more detailed--or a detailed response 
from our witnesses.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    First, I want to commend the members who have participated 
in the Bali conference for their hard work and for their 
accomplishment. I recognize the challenges ahead. They are 
going to be difficult. They are very big. But I am very 
optimistic because both of the technology that I see already in 
play but also because we are opening up, this cooperation is 
opening up a new chapter in human history, a chapter of 
cooperating worldwide to solve global problems. And so I look 
at this as a tremendous achievement.
    I thank the participants, and I yield back the balance of 
my time.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Solis.
    Ms. Solis. Thank you, Mr. Chairman. I will be brief.
    I just want to welcome our panelists also, and I watched 
with much amusement at the behavior of the United States at the 
particular meeting in Bali. I was very disappointed, very 
disappointed, because so many of us here in the Congress have 
been working very hard on trying to educate our communities, 
especially communities of color, but, more importantly, the 
messages that are sent out to third world countries. And, in 
particular, I am thinking about countries that have been 
hardest hit by droughts and fires and hurricanes. And I look 
south of the border, I look to Latin America, and I see that 
folks there are looking for leadership. And I know, while we 
have the technology, we have the know-how, we have the 
financial resources, that we should be providing a bigger role 
on a bigger level.
    So I am very anxious to hear what you have to say. Many of 
us here are excited. I know my staff and I worked on getting an 
amendment into the foreign operations spending package that 
would require, for the first time, the Secretary of State to 
convene an interagency committee to provide Congress with a 
report describing the needs of developing countries and the 
actions planned to help provide for their needs.
    This is a major, major concern of ours here in the House. 
And I am happy to say that, in spite of what the administration 
may say, those of us here, as representatives for our 
constituents, are strongly in support of advancing whatever we 
need to do to make sure that our communities are well taken 
care of and that we play an active role in combatting the 
negative effects of global warming in our planet and in our 
country and in our neighborhoods.
    Thank you very much. I yield back the balance of my time.
    [The statement of Ms. Solis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Great. The gentlelady's time has expired.
    The Chair recognizes the gentleman from New York State, Mr. 
Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    And thank you to our witnesses for your work and for coming 
here to tell us about it.
    I am one who was raised to believe that the United States 
should be a leader in many spheres of government and policy. 
And this is one in particular that we should not lag any 
further on. We should not only join the rest of the world in 
working for reduction of greenhouse gases, but we should be 
leading.
    And I, of course, would love to see China, India and all 
countries of the world join in, but I don't think we should 
hold back, because leaders do not hold back. They set the 
example for the rest of the world.
    People in my district and the people I know around the 
country who I speak to see the changes in the weather. They 
know about the drought in Georgia that is so extreme that boats 
and docks and marinas are far from where the water is. They 
know in our district about the three 50-year floods in the last 
3 years. They know about the ice storm in the Midwest that was 
deadly to many people; the 139-mile-per-hour hurricane-force 
storm that hit the Northwest States; the typhoon that decimated 
Bangladesh; the multiple extreme hurricanes that hit the 
Yucatan this year; the tornado that destroyed the town of 
Greensburg, Kansas, and on and on. These are phenomena that may 
be isolated but are probably a part of the predicted pattern of 
increased intensity and frequency of storms.
    I have seen several examples recently of ways of developing 
and using energy. I just drove a hydrogen car that GM is 
developing, which, especially if they get hydrogen from water 
rather than from natural gas, I am optimistic that that is a 
possible solution to part of the problem. And of course the 
verdant hydrokinetic tide-powered experiments that are going on 
in the East River in New York are very promising.
    The last thing I want to say, just because this is 
Christmastime or holiday time of giving for many people of many 
faiths, if you know somebody who has everything and you want to 
give them something that will help mitigate the impacts of 
global warming, you can go on the Internet and search for how 
to adopt a polar bear and give a polar bear to somebody who has 
everything. And that bear will be followed; their habitat will 
be protected. And you can teach people, at the same time, about 
the changes going on in the arctic as a result of this problem.
    And, with that, I yield back. And thanks for holding this 
hearing, Mr. Chairman.
    The Chairman. I thank you very much.
    And just before we end it, the gentlelady from Tennessee, 
Mrs. Blackburn, has arrived. And she is recognized for an 
opening.
    Mrs. Blackburn. I thank you, Mr. Chairman.
    And welcome to all of our witnesses today. Thank you for 
the hearing and the time.
    We all know that on December 15th the U.N. completed a 2-
week conference in Bali, Indonesia, and it was attended by 
representatives of more than 180 countries. And the attendees 
completed the conference by establishing an Adaptation Fund 
Board to oversee the implementation of the adaptation fund 
created under the Kyoto Protocol. Delegates also considered 
policies to reduce emissions from deforestation and forest 
degradation in developing countries.
    However, I have two main concerns about the general path 
that the U.N. conference in Bali proposes, and these are 
concerns I want to address with you all today.
    First, the conference seeks to implement severe 
CO<INF>2</INF> restrictions worldwide in an attempt to prevent 
global warming. And, as we are hearing, global warming has 
little to do with human activities. So that one is of concern 
to me.
    Data is increasingly surfacing in peer-reviewed journals 
that show climate change may or may not be a problem. Further, 
much of the data in the climate models that the IPCC have used 
and some that the Bali road map is based upon are appearing to 
pose questions, and the credibility is being questioned on 
those.
    Emerging data suggest that recent global warming over the 
past hundred years may not be caused by human CO<INF>2</INF> 
emissions. Instead, the data tells us that the warming could be 
well within the natural variability and largely determined by 
changes in the sun.
    So that is one area that I would like to travel with you 
all.
    Second, the conference wants to institute a world carbon 
market to track and manage CO<INF>2</INF> emissions. Last year, 
some of my colleagues and I went on a fact-finding mission to 
Europe to look at their emissions trading scheme. I found it 
curious that they called it a ``scheme.'' And what we found was 
a system that maybe wasn't as credible as we would like to see 
it; that it didn't reduce the CO<INF>2</INF> emissions and, in 
some cases, might have even aided the increase.
    So, to force this type of system on every industrialized 
nation is not going to be something that is going to stop 
global warming. We have to look at what the benefits and the 
causes and the cost are going to be and then look at how we 
need to address other issues that may be more pressing problems 
that we can do something about: diseases, malnutrition and 
sanitation.
    So thank you, Mr. Chairman. I look forward to the 
questions. And welcome to our witnesses.
    The Chairman. I thank the gentlelady.
    All time for opening statements by members of the committee 
has expired, so we will turn to our panel. And our first four 
witnesses today all participated in the Bali conference.
    We will begin with Mr. Alden Meyer, director of strategy 
and policy for the Union of Concerned Scientists. Mr. Meyer 
has, for over 30 years, had experience working on issues of 
energy and climate change, both at the State and national 
level. Before coming to the Union of Concerned Scientists in 
1989, Mr. Meyer served as executive director for the League of 
Conservation Voters, Americans for the Environment, and the 
Environmental Action Foundation.
    We welcome you, Mr. Meyer. Please begin.

STATEMENTS OF MR. ALDEN MEYER, DIRECTOR OF STRATEGY AND POLICY, 
    UNION OF CONCERNED SCIENTISTS; MR. PHILIP CLAPP, DEPUTY 
   MANAGING DIRECTOR, PEW ENVIRONMENT GROUP; MS. CHRISTIANA 
  FIGUERES, OFFICIAL NEGOTIATOR, U.N. FRAMEWORK CONVENTION ON 
  CLIMATE CHANGE AND THE KYOTO PROTOCOL, COSTA RICA; MR. NED 
HELME, PRESIDENT, CENTER FOR CLEAN AIR POLICY; MR. MYRON EBELL, 
    DIRECTOR, ENERGY AND GLOBAL WARMING POLICY, COMPETITIVE 
                      ENTERPRISE INSTITUTE

                    STATEMENT OF ALDEN MEYER

    Mr. Meyer. Thank you, Chairman Markey and members of the 
select committee. UCS has been active on international, 
national and State climate change policy since 1989, and I have 
personally attended almost all of the international negotiating 
meetings on climate change since 1991 when negotiations started 
over the original Rio Framework Treaty. I am pleased to be able 
to share with you my observations on the Bali negotiations.
    I do believe this meeting reflected a sea change in the 
willingness of both developed and developing countries to move 
forward together in confronting the climate threat and really 
opens the way for serious negotiations over the next 2 years.
    Substantial scientific evidence indicates that an increase 
in the global average temperature more than two degrees Celsius 
above pre-industrial levels would pose severe risks to natural 
systems and human health and well-being. Limiting warming to 
this level will require global emissions to peak within the 
next 10 to 15 years and then be reduced by 50 percent or more 
by mid-century, with much deeper cuts for industrialized 
countries.
    In the late 1990s, you may recall companies opposed to U.S. 
ratification of the Kyoto Protocol ran television commercials 
with the theme, ``It is not global, and it won't work,'' 
because countries like China and India did not take on binding 
emissions targets under the initial Kyoto framework. The most 
important outcome of Bali, in my mind, is the full recognition 
that the climate change problem is global and that we all have 
a stake in addressing it.
    In Bali the world saw the dismantling of the so-called 
Berlin wall, the famous phrase, the 1995 Berlin mandate that 
Mr. Sensenbrenner referred to, that prohibited any new 
commitments for parties not included to Annex 1 of the 
framework convention, nonindustrialized countries. The 
president of Indonesia captured it well in his keynote address 
to the meeting: ``Developing countries, too, must do our part. 
The bottom line is that we all must do something differently 
and do something more.''
    The new Australian Prime Minister, Kevin Rudd, put it 
starkly: ``The community of nations must reach agreement. There 
is no plan B. There is no other planet any one of us can escape 
to; we have only this one. And none of us can do it alone, so 
let's get it right.''
    And the Minister from India captured the true spirit of 
Bali when he said, ``What is at stake is saving our future 
generations. And therefore it is not a question of what you 
will commit or what I will commit, it is a question of what we 
will commit together to meet that challenge.''
    Through the constructive efforts in Bali of countries like 
China, Brazil, Indonesia, South Africa and others, Costa Rica, 
with last-minute acquiescence of the U.S., negotiations have 
been launched under the framework convention on nationally 
appropriate mitigation actions by developing country parties, 
as well as on post-2012 emission reduction commitments for the 
U.S. and other non-Kyoto industrialized countries.
    Simultaneously, negotiations over deeper emission reduction 
obligations of industrialized countries that have ratified 
Kyoto, including most recently Australia, will continue in the 
ad-hoc working group launched in 2005 in Montreal. These two 
negotiating tracks will proceed in parallel with comparability 
of action required for all developed countries.
    Consensus could not be reached on the level of ambition for 
these negotiations, as the U.S. fought hard to keep any 
specific reference to the need for industrialized countries to 
reduce their emissions 25 to 40 percent below 1990 levels by 
2020 out of the convention track decision.
    In the closed working group negotiations, developing 
countries said they could accept a reference to a need for 
global emissions to peak in the next 10 or 15 years and to be 
reduced by 50 percent or more by mid-century. This would have 
been a significant achievement, given that achieving such a 
goal would require substantial reductions in projected 
emissions for big developing countries like China, India and 
Brazil.
    But these countries made it crystal clear they could only 
support such a goal if it were to be accompanied by the 
language on 25 to 40 percent reductions in emissions by 
industrialized countries by 2020. The U.S. was unwilling to cut 
this deal, falsely claiming that inclusion of such a range 
would, quote, ``prejudge,'' unquote, the outcome of the 
negotiations. In my view, this was a significant missed 
opportunity. But the science-based language remains in the 
Kyoto track decision, along with the comparability language in 
the Bali action plan, so you can argue, by reference, it 
applies to the United States.
    While the language on mitigation actions by developed and 
developing countries generated the most intense debate in Bali, 
there are a number of other important building blocks included 
in the Bali Action Plan, which I describe more fully in my 
prepared testimony. These include adaptation, as Ms. Solis 
referred to; helping vulnerable developing countries deal with 
significant impacts of climate change that are already apparent 
and will only worsen in the future; reducing emissions from 
deforestation and forest degradation, which accounts for an 
estimated 20 percent of global CO<INF>2</INF> emissions, equal 
to the total emissions of the U.S. or China and more than the 
total emissions of the transportation sector worldwide; and 
strategies to facilitate the development transfer and 
accelerated deployment of clean technologies, along with 
greater access to financing and capacity-building for 
developing countries.
    Putting flesh on the bones of the technology and financing 
elements of the Bali Action Plan is key to reaching agreement 
over the next 2 years on sectoral policy-based and other 
mitigation commitments by developing countries to help 
decarbonize their future development path. The fact that, at 
the end of the day, the Bush administration was unwilling to 
block these negotiations from going forward is a hopeful sign, 
for, while a different U.S. team will be on the field during 
the second half of negotiations, it would have been a tragic 
waste of time to run out the clock.
    Finally, Mr. Chairman, in her speech during the high-level 
segment, Connie Hedegaard, the Minister of Denmark, which will 
host the meeting in December 2009 where the new agreement will 
hopefully be reached, laid out a clear challenge to the U.S.: 
``It is about time that we act in a collective, constructive 
and timely manner. For almost a century, Europe has looked to 
the U.S. for leadership and guidance in times of instability 
and change. We do so yet again as we strive to reach a truly 
comprehensive agreement to combat climate change. But we do so 
knowing full well that all countries, not just the largest 
emitters, share responsibility for the final outcome.''
    I hope, Mr. Chairman, that we will heed Minister 
Hedegaard's wise words as we move forward from Bali to 
Copenhagen.
    [The statement of Mr. Meyer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Meyer, very much.
    Our second witness is Mr. Phil Clapp, who is the deputy 
managing director of the Pew Environmental Group. Mr. Clapp 
previously served as the president of the National 
Environmental Trust, which he led since its founding in 1994. 
Mr. Clapp has more than a decade of experience on Capitol Hill, 
as staff director of the House Budget Committee's Energy and 
Environment Task Force and legislative director for former 
Senator Tim Wirth.
    We welcome you, Mr. Clapp. Whenever you are ready, please 
begin.

                    STATEMENT OF PHILIP CLAPP

    Mr. Clapp. Thank you, Mr. Chairman. And thank you for your 
invitation to be here today.
    First of all, I want to congratulate you on what has just 
occurred. The President has just signed the energy bill, and 
that culminates what I know is for you a 20-year crusade to 
increase the fuel economy standards in Federal law. And you 
have contributed an enormous amount to that all the way back to 
1982, and I remember your efforts back on the Energy and 
Commerce Committee at that time. So, congratulations.
    The delegates came to Bali with fundamentally three 
challenges: first, a decision as to whether to launch formal 
negotiations on a new treaty to be concluded in Copenhagen in 
2009; secondly, to establish the timetable and rules for those 
negotiations; and third, to agree upon measures that would be 
open for discussion.
    That was the minimum bar, and I think all three were 
accomplished in Bali. We have an agreement today that could 
have launched a much stronger set of negotiations. As many of 
you have noted in your opening statements, the European Union 
proposed a reduction of 20 to 40 percent in worldwide emissions 
and a long-term goal of a 50 percent reduction by 2050.
    I want to emphasize that those were only in the preamble of 
the agreement. This was an ultimately hortatory statement that 
this is the target that the world should be seeking to reach in 
the new negotiations. No one was attempting in Bali to impose 
some sort of regulatory straightjacket that said there was a 
binding agreement that these reductions should occur. But it 
was an attempt to create a budget.
    Unfortunately, the United States opposed those provisions, 
that preambular language. And, as a result, although it does 
appear in the text, we can claim less of an endorsement coming 
out of Bali for that as a target than we could have. And that 
is unfortunate, given how quickly the scientific evidence is 
mounting.
    I mean, we are now at the point where Arctic Sea ice was 
reduced to less than half of its normal size this year. The 
Northwest Passage opened for the first time in history this 
year. And we have scientists telling us very clearly, most 
recently at the American Geophysical Union meeting that was 
held in San Francisco concurrent with the Bali talks, that we 
will reach the point when the Arctic may be free of summer sea 
ice not by 2040, a projection which shocked scientists when one 
NASA scientist made it last year, but as early as 2012. The 
leading scientist who made that projection, who actually is the 
son of a coal miner and worked in coal mines as a child, said, 
``The canary has died. It is time to get out of the mine.'' 
That is the urgency of these talks. The world has one more shot 
to get an agreement, and this will be it.
    There is enormous suspicion of the United States throughout 
these talks, and it does not come just from President Bush's 
opposition to a binding international treaty and numerical 
targets. The United States, all the way back to 1992, has a 
long history of either fighting binding agreements, as it did 
with the framework convention under the first President Bush--
that convention is voluntarily only because of U.S. 
opposition--through Kyoto in 1997, when the United States, 
under the Clinton administration, sought weaker targets and, 
indeed, did not act to reduce its own emissions.
    So we have an enormous challenge to lead. And Kevin Conrad 
of Papua New Guinea said it best at the end when he said, 
``Lead, follow or get out of the way. We would like to see you 
lead. But if you will not lead, get out of the way.'' The 
United States has to lead these talks. There is enormous 
suspicion of U.S. intentions under an administration of either 
party. And unless we do not take up our responsibilities, we 
will see another treaty that fails.
    I want to make one more comment about the role of 
developing nations, which Ms. Figueres will go into, I am sure, 
in much more detail. The watershed at these talks was that 
developing nations came to the table and the United States 
found itself incapable of saying yes to their proposals. For 
the first time, developing countries, including China, agreed 
to undertake measurable, reportable and verifiable emissions 
reductions actions. That is a step across a line that was first 
drawn in 1992.
    In addition, although I was complimenting the Chairman on 
the bill that the President signed today, I would like to point 
out that China, for example, has fuel economy standards in 
place today that met the same target in that bill, which is 
2018, in 2005. So there is an enormous amount of leadership 
going on in the developed world that the United States is not 
recognizing. And unless we do and come to the table with 
something to offer in return for their leadership on a number 
of these issues, we will find yet another failed negotiation.
    [The statement of Mr. Clapp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Clapp, very much.
    And thank you for your kind words about the energy bill. I 
might add that we have now finished the energy bill. The 
President has signed it. I don't think anyone was predicting 
that last December, but it has happened.
    And what we are doing here in this December, on this day, 
on this afternoon, is having the last hearing that this 
Congress will have, but it is really the first hearing of the 
next Congress. There are a lot of people who do not believe 
that we can pass a cap, auction and trade bill as well. But the 
Speaker is committed to it. And that is why we are having this 
hearing today. Think of it as the first hearing on the next big 
issue that we hope that we can get the President's signature 
on.
    Our next witness, Christiana Figueres, has been official 
negotiator of the U.N. Framework Convention on Climate Change 
and the Kyoto Protocol for Costa Rica since 1995. She also 
serves as a member of the executive board of the Kyoto 
Protocol's Clean Development Mechanism. In 1995, Ms. Figueres 
founded the Center for Sustainable Development in the Americas, 
where she served as director until 2003. For her leadership in 
the areas of climate, energy and conservation, National 
Geographic and Ford Motor Company recognized her with their 
Hero of the Planet Award in 2001. We are extremely fortunate to 
have her expertise on Costa Rica and developing nations.
    Welcome, Ms. Figueres. Whenever you are ready, please 
begin.

                STATEMENT OF CHRISTIANA FIGUERES

    Ms. Figueres. Thank you, Mr. Chairman, Honorable Members.
    I speak to you as a citizen of Costa Rica, a developing 
country that has taken on the goal of being carbon-neutral by 
the year 2021. We do so in full recognition that our impressive 
size will not necessarily affect global trajectories of 
emissions, but out of the deep conviction that it is the moral 
obligation of every country, large or small, to do the utmost 
to address climate change.
    You have asked me to come here today to address the issue 
of the Bali meetings from the perspective of the developing 
countries. As already pointed out by speakers before me, this 
meeting will be recognized as the one meeting in which 
developing countries made a landmark stride forward.
    I want to point out three specific issues that are highly 
unusual for developing countries.
    Number one, their willingness to participate in the climate 
change convention in very unusual ways. Developing countries 
are already and have already done more than the sum total of 
countries participating in the Kyoto Protocol, and I believe 
Ned will give you the numbers of that. However, in Bali, they 
expressed their very clear intent to do more than that. In a 
dramatic departure from the traditional no-new-commitments 
stand, developing countries assumed, under the Bali decision, 
their willingness to undertake measurable, verifiable and 
reportable actions supported by finance and technology on the 
part of developed countries.
    The industrialized countries assume measurable, verifiable 
and reportable commitments or actions according to their 
national circumstances. From our perspective, we recognize that 
this is a major step forward for the United States, given where 
the United States has been over the last few years. But it is a 
much weaker commitment than that which the European Union had 
already committed to before they went to Bali. So on that 
score, the developing countries have put much on the table, 
and, as a group, the industrialized countries have put 
comparatively less.
    To my second point, commitments, our very favorite word. 
The decision in Bali does not obligate any party to any type of 
commitment. In fact, it just opens a process over which, over 
the next 2 years, we will explore the form and level of 
commitment of all parties.
    The form of further contributions on the part of developing 
countries is yet to be determined, but it will very likely not 
be binding national emission targets as those that are assumed 
under the Kyoto Protocol. In fact, it is our task over the next 
2 years to explore the full range of commitment types that may 
be possible and possibly to move toward a basket of commitment 
types where every country will assume the type of commitment 
that it feels comfortable with according to its national 
circumstances.
    Third, and most importantly, contingency. The Bali 
discussions point very clearly to the fact that all further 
action of the developing countries is predicated on whatever 
the industrialized countries are going to do and, more 
specifically, on what the United States is going to do.
    The United States is admittedly the largest historical 
emitter, the highest per-capita emitter and the wealthiest 
nation. It is understandable, then, that there is a perception 
that the United States is not doing enough.
    I would like to underline that a higher level of ambition 
of the United States as we go forward will encourage stronger 
contributions of the developing countries. Conversely, a lower 
level of ambition of the United States will elicit only weaker 
contributions of the developing countries. Hence, the United 
States is in the very privileged position of wielding the most 
influence on what the global overall level of effort is going 
to be, as we move forward.
    To conclude, I would like to underscore that this new 
engagement of developing countries is a very clear invitation 
to the U.S. to engage. But there is a timing issue here. The 
agreement is scheduled to be reached by the end of 2009. Given 
where the United States is in its electoral cycle, it is more 
than likely that the U.S. participation in this regime will be 
shaped by this Congress. Hence, we are very encouraged by the 
development of mandatory legislation to reduce emissions in the 
United States.
    Honorable Members, it is in your hands to ensure that we, 
together, live up to the science of what is needed and stay 
within the art of what is possible. Thank you.
    [The statement of Ms. Figueres follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much.
    And our next witness, Ned Helme, is founder and president 
of the Center for Clean Air Policy and has more than 25 years 
of experience working on climate change and air policy. Mr. 
Helme advises Congress, State governments and the European 
Commission and developing countries on those issues. He played 
a key role in the development of the Clean Air Act of 1990 and 
the European Union's emissions trading system.
    So we welcome you, sir. Whenever you are ready, please 
begin.

                     STATEMENT OF NED HELME

    Mr. Helme. Thank you very much, Mr. Chairman and Members. I 
appreciate the opportunity to speak to you today. I will kind 
of clean up here and I will try to cover the points that maybe 
weren't covered by my colleagues.
    As you mentioned, we work a lot with key developing 
countries--China, India, Brazil and Mexico, in particular--and 
we work with a number of the States in the United States.
    During the course of the Bali meeting, we brought together 
Ministers from 25 countries--Christiana was part of that 
meeting--and talked about the Bali road map and the idea of 
providing incentives for developing countries to go beyond what 
they have done. And I will show you in a minute a slide that 
shows exactly how much effort they have made. And it was 
endorsed by all of those present and certainly became a part of 
the final agreement.
    We also hosted a meeting for Senator Kerry and your staff 
and other staffs there, with the leadership of the European 
Union, in a very constructive exchange on a lot of these 
issues.
    I want to make four points this morning.
    First, I want to emphasize the difference in vision between 
the United States and that of the European Union and developing 
countries and the rest of the world in this debate.
    Secondly, I want to talk about the EU's leadership. I think 
what they did going into Bali and what they did at Bali was 
critical to the outcome and deserves a lot of recognition and 
reflects dealing with the competitiveness issue in an effective 
way. And I want to come back to that.
    Thirdly, I want to echo what Christiana and others have 
said about the role of developing countries and sort of provide 
you with some actual detail on the level of effort developing 
countries have undertaken already and what we expect coming 
forward.
    And, finally, I want to address the issue that Mr. 
Sensenbrenner raised earlier about competitiveness. I think the 
European Union has crafted a much better path, a much more 
positive path to dealing with that than we have so far in the 
U.S., where the major effort so far has been this border tax 
adjustments provision proposed by Mr. Bingaman and others in 
the Senate bill. I think there is a much better path that 
developing countries would welcome to move the ball forward 
rather than sort of saber-rattling, as we saw the 
administration do a bit of during the debate.
    Let me hit quickly these points.
    In terms of difference in vision, I think the fundamental 
difference here is Europe and developing countries see this as 
a process where we take unilateral action, we step forward, 
make commitments, and then we work together through incentives 
to go beyond that. That it is a joint effort. We have all got 
to rise together to meet this challenge. In contrast, the 
U.S.'s view has been let us all make pledges, let us have some 
weak aspirational goals for 2050 and then call it a day.
    The heart of the difference here is, do we do something in 
2020 that ensures that we still have the possibility of meeting 
the goal we want in 2050, or do we sort of see what happens and 
hope for the best? Basically, unless we make a decision in 2020 
that is pretty concrete, we basically wipe out our chance of 
meeting the budget in 2050.
    In terms of EU leadership, as you know, the heads of state 
of Europe, back in March, agreed to a 20 percent reduction 
below 1990 levels on their own, unilaterally, regardless of 
what anybody else does. And they proposed to do 30 percent or 
more below 1990 if other developed countries step forward and 
if major developing countries made comparable efforts.
    And that really set the bar for the discussion at Bali. It 
was a very useful signal. And it also sent the signal that the 
EU sees this as not just a question of narrow competitiveness 
concerns, but a matter--this is a bigger deal than that; that 
we can take a hit in the cement industry, the steel industry in 
the short run in return for solving this much larger problem. I 
think that is the way we have got to think about this issue.
    In terms of developing country leadership, let me ask the 
team to put the slide up for me. I think this is a statement by 
the Minister from South Africa, and I think it really captures 
where we are. He said basically, ``Developing countries are 
saying voluntarily that we are willing to commit ourselves to 
measurable, verifiable mitigation action.'' And then he said, 
``It has never happened before. A year ago, this was totally 
unthinkable.'' This is what he said right before the U.S. 
caved. And I think this gives you a context of how much of a 
watershed, how much of a breakthrough this was.
    Next slide, please.
    This shows you quickly the numbers. As Christiana 
mentioned, the gray line is what Lieberman-Warner would do in 
2015. The blue line is what the EU's minus-30 percent target 
would do. The red line is what China, Brazil and Mexico, with 
laws on the books today in each of these countries, policies on 
the books today, if fully implemented, they would make greater 
total reductions from their business-as-usual levels than the 
European Union or the Lieberman-Warner bill. So this puts to 
sleep once and for all this myth about, ``Developing countries 
aren't doing anything, so we shouldn't do anything.''
    Here are the facts. And, as others have said, this is about 
car standards, this is about a 20 percent improvement in energy 
efficiency by 2010. This is by 2010. Lieberman-Warner numbers 
are for 2015 and 2020. So it gives you a sense of how big this 
is.
    I was in China the last 2 days, discussions with them. I 
was impressed by how committed they are. A lot of criticism, 
``Oh, they only got 1 percent the first year.'' This year they 
will get 4 percent of that 20 percent goal, and they are making 
big steps to go further in the coming years.
    Let me close with a quick word on competitiveness. I will 
come back to it, hopefully, in the questions.
    Europe has a high-level group on competitiveness. They 
brought together 500 chief executives. I got to speak there a 
week before Bali. All the leadership of the European 
Commission, the Secretary of Commerce, the Secretary of 
Treasury, the Secretary of Transportation, the Commissioner of 
Environment, all met. They agreed on a package on 
competitiveness that says sectoral approaches make sense. Let's 
offer carrots to developing countries to take a similar carbon-
per-ton-of-steel goal, offer some incentives in terms of 
financing, and we get toward that proverbial level playing 
field that we hear so much about and Mr. Sensenbrenner was 
talking about.
    This is a much better path, an incentive-based approach, 
than this idea of putting border tax adjustments on everybody. 
And Europe talks about border tax adjustments too. The 
companies are just as worried there as we are here about what 
happens to our industries. But I think they recognize that 
there is a much better way forward. And this is something that 
I would really like to see us do.
    The U.S. and the Asia-Pacific Partnership started this 
thing, but, as usual, they let it die by being unwilling to do 
anything serious. It is a classic story of everything we touch 
turns to you know what. That is what has happened in terms of 
the U.S. position.
    So I think there is an opportunity here, there is an 
opportunity across the aisle here, to deal with this issue, and 
we really got to grab that piece.
    Thank you.
    [The statement of Mr. Helme follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Helme.
    Energy bill, step one. Mandatory cap, auction and trade 
next.
    Our next witness is Myron Ebell. Mr. Ebell is director of 
energy and global warming policy at the Competitive Enterprise 
Institute. Before joining the Competitive Enterprise Institute, 
Mr. Ebell focused on environmental issues as policy director 
for Frontier of Freedom, as a senior legislative aide for our 
good friend and colleague on this committee, Congressman John 
Shadegg, and has also served as the Washington representative 
of the American Land Rights Association.
    We welcome you, Mr. Ebell. Whenever you are ready, please 
begin.

                    STATEMENT OF MYRON EBELL

    Mr. Ebell. Thank you, Chairman Markey. And thank you for 
having me here today.
    I am sorry to say I cannot begin by congratulating you on 
the anti-energy bill that was enacted. One of the reasons I was 
not able to go to Bali this year is that you all have been 
keeping us so busy with things that we oppose. But I do--but 
congratulations for getting it through. I am not pleased, but 
congratulations.
    The Chairman. Mr. Ebell, I did not go, but I went by Avatar 
to Bali. And I would recommend that the next time you can't 
travel.
    Mr. Ebell. Right. Right. Well, I have been to many of 
these. You know, it is interesting that 15,000 people were so 
eager to get out of our winter temperatures and fly to a 
tropical paradise. Of course, they used a bit of energy. I 
don't hold that against them.
    I would also like to say I am very pleased that two members 
from my native State are here. One of them I consider my own 
Congressman. He is from the right side of the Cascades, as I 
like to think of it.
    I would like to say I think that the Bali talks need to be 
put in some kind of context. And what I would like to say is 
that if global warming is a problem, then the Kyoto approach 
cannot possibly be part of the solution. It is being tried 
halfheartedly in some of the countries that ratified the Kyoto 
Protocol, and it is not working. Even in the European Union, 
where global warming is a religious commitment, emissions are 
going up. Emissions have been going up since Kyoto was ratified 
in 1997; they are continuing to go up.
    They are going up much more rapidly in some European 
nations than in the United States, even though those nations 
have lower economic growth and virtually no population growth. 
Our emissions have tracked population growth, and we have been 
putting on about one point of emissions growth for every point 
of population growth. And we have been putting on about three 
points of economic growth for every point of emissions growth. 
Spain has been putting on more than one point of emissions 
growth for every point of economic growth, for example.
    Now, if Europe were really serious about this issue, I 
think there would be some indicators. For example, if the Brown 
Government decides not to go ahead with the new runway at 
Heathrow, or if they decide to cancel the proposed coal-fired 
power plants, or if the German Government decides to back down 
on auto emissions controls and tells that their big auto makers 
will just have to stop producing so many big cars, I think that 
would be an indication that they are serious.
    But, you know, we have this cap and trade before the 
Congress. Cap and trade is not working in Europe except to 
benefit big special interests. Places like hospitals are having 
to buy credits from big oil companies, for example. This is a 
huge wealth transfer, but it is not an emissions reduction 
program.
    And I have brought copies of a paper, an exhaustive paper, 
by a think tank in London, Open Europe, that shows why the 
European emissions trading scheme is not working. I would point 
out that the preface to that large paper is by a Green Party 
member of the Swedish parliament.
    Now, I generally agree with Mr. Sensenbrenner about Bali. I 
think there are reasons to be positive.
    And I would say, first of all, the U.S. tends to be 
isolated at all of these negotiations on multilateral 
environmental agreements. And the reason is because we are 
unusual in that, if we ratify a treaty, it has the force of law 
and it can be enforced in Federal courts against the 
administration and against the Congress. That isn't true of any 
other country in the world. That is why if Japan or Canada or 
the European Union fail to meet their Kyoto targets, they will 
say, ``Oh, well, we tried. We are morally superior because our 
intentions were good.'' That would not be possible if we 
ratified the Kyoto Protocol or a succeeding agreement. We would 
have to do what we said. It could be enforced in Federal court.
    But I do not think the U.S. is isolated anymore at these 
negotiations; I think it is the European Union that is 
isolated. The United States now leads that. And you will see 
this if you look at the positions of Japan, Canada, Australia 
even, even the new government in Australia, Russia, many of the 
G77 members, and I think we have found a lot of common ground 
with China and India.
    Very briefly, the common ground is mandatory regulations 
won't work if the technology and economics don't work; that, 
therefore, future agreements must first focus on technology, on 
adaptation and on some side issues, which I think are 
important, like forestry.
    So I will stop there. Thank you very much.
    [The statement of Mr. Ebell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Ebell, very much.
    The Chair will now recognize himself for a round of 
questions.
    First you, Mr. Clapp, and you, Mr. Meyer. Do you think that 
the major economies meetings initiated by the United States can 
make any positive contribution to the U.N. negotiating process, 
or are they more likely to undermine it?
    Mr. Clapp. I think what is important, Mr. Chairman, is that 
the administration's objectives in the major emitters talks are 
quite unclear. We have two sets of talks going on here 
simultaneously.
    I mean, there is an aggressive agenda that has to be 
followed to achieve an agreement in Copenhagen under the U.N. 
process by 2009. At the beginning of the Bali conference, the 
Chairman of the White House Council on Environmental Quality 
delivered a letter to the other delegates outlining a process 
of monthly meetings between now and July, all over the world, 
with an agenda to come to some sort of agreement by a leaders 
summit in July.
    Well, every country only has so many global warming 
negotiators. It is very unclear to me, and I think the 
administration should make clear what its objectives are, 
because it has the prospect of really undercutting the ability 
to continue the U.N. negotiations.
    The Chairman. Mr. Meyer.
    Mr. Meyer. Let me just build on that. I think it could be a 
useful process if the U.S. would put forward a specific 
proposal of what we want to do. The European Union has said 
that they want to try to stay below the 2 degree Celsius 
temperature increase that I mentioned. Japan has put forward 
its Cool Earth 50, calling for a 50 percent reduction in global 
emissions by 2050. The U.S. refuses to put any specific 
proposal on the table.
    And I asked about this in Bali. I said it is like inviting 
people to a dinner party and not serving food. The main purpose 
of the September meeting was to talk about the global long-term 
goal. The U.S. put no proposal on the table. If they don't put 
a serious proposal on the table in Honolulu, my own view is it 
is not a serious effort.
    If not 2 degrees, what? What risk are we willing to take 
with the planet? What risk are we willing to commit future 
generations to? Is it 3 degrees, 4 degrees, 10 degrees? We 
don't know. The administration refuses to put forward a 
concrete proposal either for long-term global reductions or for 
near-term industrialized country targets.
    The Chairman. Thank you, Mr. Meyer.
    Mr. Ebell, in your testimony you say that global warming 
may be a problem in the future, but we should leave it to 
future generations to deal with it, because they will be better 
equipped to do so.
    Do you reject the IPCC's conclusion, endorsed in the Bali 
roadmap, that climate change represents an urgent problem and 
that continued delay will foreclose options to save the planet?
    Mr. Ebell. That is an involved question, but I would say, 
in general, yes. I think that if you look----
    The Chairman. You do reject it?
    Mr. Ebell. Yes. If you look at the most extreme scenarios 
from the IPCC computer projections, you will find that, even 
under what is called the A1 FI scenario, in 2100 the high-
growth, high-emissions scenario leads to a richer and warmer 
world rather than a poorer and cooler world under some of the 
emissions-constrained scenarios.
    So I think, in fact--to give you another example, cold 
weather kills a lot more people than warm weather. About over 
10 times more people die from cold weather every year than warm 
weather. Now, we know that, under the global warming theory, 
most of the warming will occur in the upper latitudes in the 
winter. And all the projections from all of these models are 
exactly--they mirror what has been happening in the 20th 
century; namely, hot-weather mortality has been going down, but 
cold-weather mortality has not been going down nearly as much.
    The Chairman. Thank you, Mr. Ebell.
    Mr. Ebell. So, from a simple utilitarian calculation, a 
little bit of warming in the upper latitudes will lead to an 
increase in human flourishing.
    The Chairman. Let me go to Ms. Figueres.
    Your testimony discusses the watershed decision of 
developing countries at Bali to agree to consider mitigation 
actions under a new global climate change agreement.
    Given the current administration's intransigence on climate 
change, what explains developing countries' willingness to open 
up to this discussion?
    Ms. Figueres. Thank you, Mr. Chair.
    The willingness comes, I believe, from desperation. The 
fact that the United States has been completely unwilling to 
live up to its very visible responsibility has led developing 
countries to say, okay, then that means that we need to 
accelerate the pace at which we will accept our responsibility 
in order to bring the United States on board. And I think, 
really, this is a very, very frank invitation to bring the 
United States on board.
    And if I could just add one comment to your question 
previously about the memo, from the developing-country 
perspective I think one of the major issues and arguments that 
has been said by the United States is that they needed a 
parallel process because the developing countries were not 
willing to play fairly within the climate regime. Bali has 
proved that that is no longer a valid argument.
    Thank you.
    The Chairman. Thank you.
    My time has expired. The Chair will recognize the gentleman 
from Wisconsin, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    As you know, I am, kind of, more a veteran of the climate 
change wars than any of my colleagues that are sitting here on 
the dais. And I harken back to what Senator Kerry said at Bali, 
and that is that any treaty that does not involve the third 
world is doomed to failure in the United States Senate.
    I think that is a given, that is a political fact of life. 
And I salute Senator Kerry as a leading Democrat in making that 
observation to delegates who might not have wanted to have 
heard that message.
    Now, that being said, I guess I would like to ask the 
panelists to briefly say, as a result of Bali and the softening 
of the administration's position, the signing up of the 
developing countries, and particularly China and India, do you 
think we are going to hear less demagoguery from the European 
Union on this subject?
    Because what the EU has been saying, and particularly what 
the Germany Environment Minister, Herr Gabriel, has been 
saying, certainly is not going to bring about the type of 
consensus needed to wrap this up in 2 years.
    Who would like to be first?
    Mr. Helme. My sense is that we really saw a coming together 
of the EU with the developing world and most of the other 
nations in agreement on how to move forward. And I think, as I 
said in my testimony, the EU's putting these targets out set a 
bar that was very useful. I think----
    Mr. Sensenbrenner. Okay. Now, let me interrupt you on that. 
The deal that was made in Berlin, which exempted the developing 
world and gave the EU a much lower emissions reduction target, 
the so-called EU bubble, as a result of two factors that 
occurred since 1990 that had nothing to do with this issue, 
basically was a deal where the developing world didn't have to 
do anything and the EU was able to what we refer to in this 
business as ``pose for holy pictures'' in playing a game of 
economic ``gotcha'' against the U.S. and Japan and Russia and 
perhaps some smaller countries like Australia and Norway as 
well. Now, if we are going to continue playing the game of 
economic ``gotcha,'' you are not going to see very much support 
in the United States Senate for what proceeds henceforth.
    And, you know, I think that what I am interested in seeing 
is whether the EU will admit not only that Kyoto was a failure 
but the mistake that made Kyoto a failure was the agreement 
that came from Berlin in 1995.
    Mr. Helme. I think there are two responses.
    One, we are beyond that, as everyone on the panel has said. 
I mean, we basically had that clear statement that verifiable 
national actions will be part of this. And we have the track 
record I presented in terms of what China, India, Brazil and 
Mexico have already done.
    I think in terms of the EU, they did make significant 
reductions, and they are now prepared to participate in that 
larger effort that will go forward in terms of with developing 
countries. So I think we are going to see a significant package 
coming forward.
    So we are beyond, sort of, the history of, did we do the 
right thing on Kyoto or not? We have now stepped up to the 
point where everybody is going to now take real steps.
    Mr. Sensenbrenner. Unfortunately Mr. Markey and I couldn't 
go to Bali because we were busy doing the job we were elected 
to do here. But reading the quotes in the press, particularly 
from Minister Gabriel, did not give me much heart that the EU 
had gotten the message, and particularly the largest economy 
within the EU, which is that of Germany.
    Mr. Ebell. Could I reply to your question, Mr. 
Sensenbrenner?
    I think we really can't expect much more from the European 
Union than demagoguery because that is really all they have. 
They are not willing to take the actions that they committed to 
to reduce their emissions. And, as you have already noted, 
their emissions went down between 1990 and 1997 for reasons 
that had nothing to do with emissions reductions.
    And so, I think what we can hope for in future negotiations 
is that the U.S., together with Japan, Canada and other several 
leading nations, will be able to lead these negotiations out of 
the Kyoto dead-end. And as long as the EU is unwilling to match 
its actions to its rhetoric, I think they will become more and 
more marginalized in this.
    Mr. Helme. Mr. Sensenbrenner, the facts simply don't bear 
out what Mr. Ebell is saying. And for the record----
    Mr. Sensenbrenner. Mr. Helme, it is my time. And I will 
just say that the two factors that allowed the EU to reduce 
their emissions from 1990 to 1997 were the fact that Mrs. 
Thatcher decided to put the British coal-miners union out of 
business and change electric generating in the U.K. from coal 
to natural gas, and the merger of East Germany and West Germany 
and the closing of the Stalin-era East German industries which 
belched hot air and greenhouse gases and were environmental 
disasters and workplace safety disasters. That had nothing to 
do with compliance with the Rio Treaty.
    My time is up. I yield back.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    And I would invite any of our other panel members who would 
like to submit for the record their view of reality in this 
regard.
    And I would just like to begin by saying how much I 
appreciated the testimony that has been presented in written 
form. They are terrific documents dealing with the broader 
context, and the reference that we are really sort of moving 
beyond Kyoto, we are moving to a new era, the rest of the world 
is moving in an exciting direction. And I really appreciate the 
context that you have provided. I think this ought to be 
required reading for everybody in Congress. I think it would be 
extraordinarily helpful. But I do invite you to supplement your 
submission.
    Part of what is interesting for me is that the United 
States, under a Republican administration, made some 
commitments, made commitments. This didn't pop out of the 
Clinton administration or other fuzzy-headed people. This was 
the result of negotiations where the United States was a 
partner. And the United States turned its back on 
implementation and, in fact, resisted that.
    Let's go back to where that was in 1992. It is not that it 
is impossible. And you have documented some of the area. I come 
from a city that is at 1990 level of emissions and has had 4 
consecutive years of--and I appreciate, Mr. Ebell, that is on 
the other side of the mountains. But it is doing something that 
has actually helped that community, and it has met those 
commitments.
    Mr. Walden. Careful now, the other side of the mountain 
thing.
    Mr. Blumenauer. Just referring back to his testimony, just 
his testimony, Greg.
    I am intrigued, however, about where we go from here. I 
have been in a number of international meetings where the 
United States has been dragging its feet, not because it is 
going to get sued, but because it would be held accountable. I 
mean, think about our failure to meet our commitments in terms 
of global water and sanitation, where we were, in Johannesburg, 
a retarding influence, not because we would be sued but because 
we would have to perform.
    I am curious if, as we are moving into this next year, 
where it is an election year, where we have greater consensus 
around the world, where the people who have been dragging their 
feet, both in the developing and the developed world, are sort 
of launching ahead, I am wondering if our panel has some 
suggestions or recommendations of what we might do in that next 
step, Mr. Chairman, as we plot things that might find their way 
into law and help frame the next steps.
    If we can just briefly have our friends respond.
    Mr. Meyer. Let me start, because I think the agreement 
reached in Bali does create a place for that conversation.
    The United States is neither fish nor foul. We haven't 
ratified Kyoto so we haven't participated in the discussions 
since Montreal in the last 2 years, the working group there, 
about mitigation potential, cost-effectiveness, what we can do 
vis-a-vis other industrialized countries. And, of course, we 
are not a developing country, so it is not appropriate for us 
to try to put ourselves in the same box within the convention.
    We have an agreement now creating the space for developed 
non-Kyoto countries like the U.S. to put on the table what they 
can do, to have civil society come in and talk about analysis 
that has been done in the United States about the cost-
effective mitigation potential, to have other others put 
forward their information about that.
    This next year is really an analytical and research, get-
the-facts-right year to prepare for the serious, hard 
bargaining in 2009. And there is a space there for Congress, 
for civil society, for our national labs, for NGOs, to put 
forward the facts as we see them about how much the U.S. can 
do.
    Mr. Clapp. Mr. Blumenauer, I would really encourage the 
members of this committee, as I have many Members of the 
Senate, to become personally involved in these negotiations. 
Because we are going to find ourselves in a position, 
regardless of what the Congress does next year in terms of 
debating legislation, where it is extremely likely that we will 
be in the middle in the winding up of major negotiations 
concluding in a treaty at the same time that Congress is 
seriously moving forward on the first legislation that will 
bind the United States to emissions reduction.
    So the two debates are going to affect each other. And I 
think it is rather incumbent upon Members of the Congress to 
begin talking to a number of foreign governments and really 
familiarizing themselves with this position, because the two 
debates are going to collide.
    I want to go back for a moment to what Mr. Sensenbrenner 
was asking. Regardless of what one wants to say about the 
European Union and the effectiveness of the measures it is 
taking, according to our own Department of Energy, Europe's 
projected emissions increases between now and 2030 are .3 
percent per year. Japan's will be .1 percent per year. That is 
one-third and one-tenth of projected U.S. increased emissions.
    So there has been a significant--for whatever reason--and 
there are policy reasons for it--Europe and Japan are actually 
making major progress in improving their emissions, whereas the 
United States, to go back to Myron's comment, is currently in 
violation of its treaty obligations under the Framework 
Convention on Climate Change, and we are 18 percent above our 
1990 levels.
    Mr. Blumenauer. I am happy to have given the remainder of 
my time to the answer to Mr. Sensenbrenner's question.
    Mr. Clapp. My apologies.
    Mr. Blumenauer. No, no, no.
    Had I had time, Mr. Chairman, one area that I happen to 
agree with Mr. Ebell--and I think my colleague from Oregon, Mr. 
Walden, would concur--that there is a huge role in terms of 
worldwide practice of forestry, what happens in this country. I 
am going to be lobbying you. We have some legislation pending 
on illegal logging. But there are a range of things. This might 
be something that might be worthy of a hearing in the future 
where we could, I think, make some real progress.
    Thank you, sir.
    The Chairman. Great. The gentleman's time has expired.
    And Mr. Sensenbrenner is a formidable proponent of this 
opposition, so I think this is very helpful for everybody to 
have a chance to come back at Mr. Sensenbrenner.
    Mr. Helme. Could I have a reaction and then an answer?
    The Chairman. No. I think other members will give you that 
opportunity.
    The Chair recognizes the gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman.
    And I want to thank our panelists for their testimony 
today. It is helpful to get your views on this topic.
    I want to pick up on a couple of points, one from my friend 
and colleague from Oregon, and ask you each to talk about what 
the United States could do domestically on forest practices on 
its own land that might assist in carbon sequestration or 
mitigating against unnecessary release of carbon and other 
greenhouse gases, principally because the record wildfires we 
are seeing and given the Forest Service's analysis over the 
last decade of warming climate and its effect on forest, with 
drought and bug infestation.
    And if you could keep your answers fairly brief, because I 
have got another question, is there anything specifically you 
or your organizations have relative to management changes you 
would recommend on Federal forest lands?
    Mr. Ebell. Yes, indeed, Mr. Walden. I grew up on a ranch in 
Baker County, Oregon. We still own that ranch. It adjoins BLM 
and Forest Service land, so I have a great deal of practical 
experience in Federal land management.
    And I would say the very most important thing you could do 
would be to privatize the national forests. The management of 
those forests is a disaster. It is a continuing disaster. They 
change management practices and philosophies, but the 
continuing undercurrent is it is always a disaster, because 
they don't have the incentives to manage their land properly, 
the way private owners do.
    Thank you.
    Mr. Walden. All right. Thank you, Mr. Ebell.
    Mr. Helme, do you have any comments? Again, briefly.
    Mr. Helme. I think there is a very interesting provision in 
the Lieberman-Warner bill that would be attractive here. In the 
allocation of allowances, they provide some of the allowances 
to forestry and agriculture folks who make improvements--
reforestation, afforestation and so on. The idea here is it is 
not offsets, it is in addition to. So you have a basic cap, 
then you take so many allowances out of the pool, sell them for 
the money, pay the money to farmers----
    Mr. Walden. Would that apply to Federal forest lands?
    Mr. Helme. Only in-holdings, not--no. These would be for 
private people, basically.
    Mr. Walden. All right.
    Ms. Figueres.
    Ms. Figueres. I could answer that with respect to our 
countries but not with respect to the United States. I will 
hold off.
    Mr. Walden. All right.
    Mr. Clapp.
    Mr. Clapp. I will pass. I think that Ned covered what I 
would have said.
    Mr. Walden. All right.
    Mr. Meyer.
    Mr. Meyer. I can ask our forestry experts to get a response 
for you for the record. It is not my area of expertise. But one 
of our scientists is the lead author of the IPCC's ``Land-Use 
Change and Forestry'' chapter, so I will try to get something 
for you on that.
    Mr. Walden. That would be helpful. I would appreciate it.
    Mr. Helme. One additional suggestion would be to keep, in 
this debate, in essence, at Bali, we are looking at national 
baselines for performance of forests across the board. We do 
that sort of informally in the U.S. It would be very useful to 
do that and sort of keep track of what are the net flows on 
these Federal lands.
    Mr. Walden. Right. That would be helpful. And, certainly, 
the work internationally on forestry I think is extraordinarily 
important. We all recognize the importance of healthy forests 
in sequestering carbon. Eradication of the forest doesn't help. 
And, certainly, these fires we have seen in the West are a real 
problem.
    I want to move to carbon sequestration technology. I was in 
Europe with the Energy Committee earlier this year. We were 
looking at different facilities.
    Can anybody talk to me about the status of existing 
technology to do both capture and compression and then 
sequestration? Is the technology available today? If I have a 
coal-fired plant, is there technology available to me today 
that will capture, compress, which you have to do, and then 
sequester carbon? And if not, what is the timeline to get 
there?
    Mr. Helme. My sense is the answer is yes, that we have done 
the different steps in carbon capture sequestration at 
different points. We haven't done it in one integrated way. The 
oil industry has done this for years with oil refineries, where 
they capture the carbon and, of course, then reinjected for 
secondary and tertiary oil recovery.
    So I would argue the technology is there. We still have 
some questions about the cost. I mean, if you talk to Exxon, 
for example, some of the major oil companies, they feel they 
can do this. They know how to capture it. They do it now, in 
terms of secondary oil recovery.
    So I think it is there. It is a question of putting all the 
pieces together. It is not something the utility industry has 
done. It is something more of the chemicals and the gas and the 
oil industry.
    Mr. Walden. Sure. But I am trying to find out--because when 
we did SO<INF>X</INF> and NO<INF>X</INF>, the acid rain 
capture, those emissions, that technology, I understand, was 
available at the time that cap and trade was put in place. And 
I keep hearing that this technology for carbon capture 
compression sequestration is not perfected yet.
    Mr. Meyer.
    Mr. Meyer. Let me just build on what Ned said. I think the 
technology is available. It is a question of price. My 
understanding is it would add now somewhere of 60 to 70 percent 
to the price of a conventional coal plant to retrofit this 
technology on. And then, when you are going up to scale, to 
find the reservoirs to permanently sequester the carbon is a 
challenge that our agencies are working on. There is 
demonstration projects around the world.
    The goal, I think, of DOE is to try to get that increased 
cost down to maybe the 10 to 15 percent range, so it is more 
viable economically. But even there, we are going to have to 
help countries like China and India cover that spread between 
conventional unconstrained coal and carbon capture and storage 
coal.
    Mr. Walden. Two questions on that point, as a follow-up. Is 
the issue about where do you put this carbon, how do you keep 
it there, and what happens if it comes out?
    And the second is, have you cost out the additional price 
per megawatt hour, kilowatt hour, whatever matrix you want, 
that this capture and sequestration will add to, say, the 
average power bill?
    Mr. Clapp. Mr. Walden, I think we are at the point where 
the real issue is demonstrating the cost at scale. You have 
utilities in the United States. I mean, Jim Rogers of Duke 
Energy has said this publicly many times, that he simply cannot 
justify to his shareholders, because there is no regulatory or 
legislative requirement in place, the kind of investment that 
is necessary to do demonstration projects. And that is where we 
are, at this point.
    Mr. Walden. So you are telling me that I could go out today 
if I owned that coal-fire plant and that technology is 
available to me to put in my smoke stack or carbon stack, 
whatever we call it now, and the technology is there to run a 
tube and put the carbon in the ground?
    Mr. Clapp. No. What I said is that we need the 
demonstration projects that bring it up to scale.
    Mr. Walden. So it is not available now?
    Mr. Clapp. It is not available at a commercial scale now.
    Mr. Helme. You need incentives to make it go.
    Mr. Walden. I am trying to get the first piece, which is, 
is it technologically ready? What does it take to get there? 
And then, at what cost?
    Mr. Ebell. I think it is ready in the sense if you are 
willing to spend a lot more money and you are willing to do it 
at a small scale.
    I think that two things should be really kept in mind. One 
is the current technology only captures two-thirds of the 
carbon dioxide that is produced. And secondly, I think the real 
thing, besides the technology, are the legal and political 
obstacles to transport and pressurize storage underground. I 
think those are----
    Mr. Walden. We heard that in Europe, too, that if carbon is 
a pollutant, you are putting a pollutant in the ground, and 
some laws will have to be changed here and elsewhere to deal 
with that.
    Is that true?
    Mr. Helme. That is true.
    I would add, in terms of Europe, Mr. Sensenbrenner's 
favorite topic, Europe has committed to building 10 or 12 of 
these demonstration plants by 2015. They will have in place 
next year a new framework for regulating this very question you 
are asking. It will be completed by the end of 2008, so that we 
can go forward with those plants.
    I think what we need here is we need the same kind of 
commitment in terms of demonstration. We are still just trying 
to build one FutureGen.
    Mr. Walden. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    And I will just make this point, that, as part of the 
legislation the President is signing related to energy, that 
there is $6 billion, $6 billion worth of Federal Government 
loan guarantees for carbon capture and sequestration in the 
legislation. So we are also moving much more aggressively on 
that path.
    Mr. Blumenauer. Mr. Chairman, I am concerned, with the 
lateness of the hour, people have missed lunch. I have an 
alternative energy source: a fruit cake that I make every year. 
It may not be legal after the next round of environmental 
protection. So I was just going to pass this down here, if 
there is no violent objection.
    The Chairman. Mr. Sensenbrenner is raising ethics 
questions, but I think we will say that, for the purposes of 
our Congressmen, we can accept fruit cake from other 
Congressmen.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    Fruit cake, the ultimate renewable energy, I suppose.
    I wanted to ask Mr. Helme to elaborate on the European 
experience of the carrots rather than the sticks on imports 
from countries that don't have aggressive carbon measures.
    Could you tell us how mature those efforts are and what 
successes they may have had and what lessons we ought to learn?
    Mr. Helme. Okay. I would be happy to.
    As I mentioned, the U.N. has this high-level group on 
competitiveness, energy security and climate. And it has been 
meeting for 2 years. And I participated 2 weeks ago in this 
high-level conference with 500 executives there. They agreed on 
a path that would be to encourage key developing countries to 
work with them on setting carbon intensity goals for key 
competitive sectors, so cement, steel, pulp and paper, oil 
refining, that sort of thing. And the idea here would be you do 
a benchmarking, so you say what is the best-practice technology 
today for a wet kiln cement plant? That comes at some level of 
carbon per ton of cement produced.
    You would ask the Chinese to look at that, figure out what 
that means in terms of the context of China in terms of its 
cost picture, could they do that with a pay-back or is that 
going to cost them a fair amount, what does that look like. You 
then ask the Chinese to set a target. And the Chinese would be 
offered incentives in the form of technology finance to go a 
little further, to set a little tougher target.
    That would be their target. It would be a no-lose target. 
They would set that target as part of their commitment in this 
next period, 2012 to 2020. They would receive the financing as 
an initial incentive on the technology side. And then if they 
beat the target, they could sell credits into the international 
market.
    This is an idea that has been tested among developing 
countries. Shown a lot of interest in it, because they are 
interested in the same way, thereafter improving the efficiency 
of these sectors. So it is got an appeal on both sides.
    It moves you toward that level playing field, so that all 
of us would have a similar kind of commitment to technology, 
and we would take this carbon issue off the table. It doesn't 
take labor costs off the table, but it takes the carbon issue 
and the technology issue off the table, and it gets the new 
technology in the hands. If you talk to China, what do they 
want from this treaty? They want the most advanced 
technologies. And this is a way to offer that to them.
    And the EU sees this as a very promising incentive path, 
which gets us to the same place I want to go. I want a level 
playing field in cement and steel so I don't lose market share 
based on carbon standards. And that is where we are heading.
    So a very promising opportunity, as opposed to I am going 
to stick you with taxes or I am going to make you buy 
allowances if you are not doing as well as I would like you to 
do in terms of your carbon program. So it is a much more 
positive approach.
    Mr. Inslee. You said if they met or exceeded these 
standards, they could sell credits into the system. Was there a 
cost if they did not meet these standards?
    Mr. Helme. No. There would be--understand that to get this 
financing for technology, they have to have a contract, they 
have to build the plants, they have to operate the plants. They 
can't just say, ``Oh, thanks, we like the money, and it is very 
nice.'' It is a contractual arrangement between that country 
and the Annex 1 countries, who are often the financing.
    And they can use that money for a variety of things. We 
were in discussions yesterday in China about their 20 percent 
goal. And one of their difficulties is getting the provinces to 
meet those targets. They set the national goal; it is the law. 
But then they have to get this done at the local level. So they 
are saying, well, could we use the money for tax credits, could 
we use the money for having the cement association in China 
work with its members to get compliance? And that is the kind 
of thing we are looking at.
    And it is a good opportunity of collaboration with the 
World Business Council for Sustainable Development and others. 
So it is a very promising opportunity.
    Mr. Inslee. What is the best way to really delve into that 
proposal from Europe? I mean, has anybody got sort of a master 
paper describing that?
    Mr. Helme. I can certainly share with you, I think, as I 
mentioned earlier, the U.S. is on this path. The Asia-Pacific 
Partnership is developing the very benchmark data. The trouble 
is the U.S. has no credibility because, at the end of the day, 
they won't put any money on the table for incentives and they 
won't take any targets. If they did, their good idea would get 
a lot of momentum.
    I mean, I think Myron was saying there is some 
collaboration with China and India. There is. But the point is, 
where is the beef, where is the incentive money? That has what 
has been lacking. Where is the action?
    Mr. Inslee. Could you put up that--you had a graph showing 
relative improvements in CO<INF>2</INF> between the U.S. under 
McCain-Lieberman and Chinese existing----
    Mr. Helme. Yes. Here it is. Can you see it from back there? 
The red is China, Brazil and Mexico. The blue is the European 
Union's 30 percent target that they set for 2020. The gray on 
the left is Lieberman-Warner in 2015. And the green on the 
right is Lieberman-Warner in 2020. So to give you a feel for 
the targets.
    And these are reductions below business-as-usual, okay. 
Because, remember, China is growing 100 percent, so they are 
shaving the growth. These are not reductions from 1990 levels 
or anything like that. But it still shows you that--and this is 
laws on the books today.
    This isn't projections of what they might do some other 
time. This is laws on the books today, if fully implemented, if 
they did 100 percent implementation, which is always tough in 
developing countries.
    Mr. Inslee. Take this with a grain of salt. I mean, I 
haven't studied this. But it is actually--what is interesting 
to me, if you look at that graph, is even if we adopt McCain-
Lieberman, even if it was implemented, we are still just 
marginally ahead of the amount we would be reducing compared to 
China, even if we adopt a cap-and-trade system, relative to 
their measures already.
    Mr. Helme. That is exactly right. And China's numbers are 
for 2010. McCain-Lieberman-Warner is 2020. So they are doing 
this faster by 10 years, which is what we need actually.
    Mr. Inslee. So is that a comment on--and I support the cap-
and-trade system.
    And my time is up, so I will talk to you after this 
hearing. Thank you.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I would like to also say God bless Mr. Blumenauer for the 
spirit of giving. Thank you, sir.
    The gentlewoman from Tennessee has left. And I certainly 
will not be disrespectful. On two occasions, she has presented 
the word, the European ``scheme,'' as if it is something like 
the guy who was able to drill underground in Texas when I was a 
kid to tap into other oil. That was a scheme. In Europe, the 
word ``scheme'' is--the English word ``scheme'' is synonymous 
with the word ``plan,'' ``diagram.'' It has nothing to do with 
some kind of system of ripping off folks. It means map; it 
means sketch. And it gives off the impression to some that the 
Europeans are announcing we are ripping you off. And if they 
were doing that, they would use another word. So she has done 
that twice, and I just wanted to say that.
    The other thing, Mr. Ebell, I wasn't sure if you were 
serious when you were saying that the forest should be operated 
privately. Were you making a point, or do you actually--I mean, 
do you----
    Mr. Ebell. Mr. Cleaver, absolutely. Federal land managers 
do have the correct incentives to take care of what they are 
managing because they don't own it. So, yes, absolutely.
    Mr. Cleaver. Okay.
    The developing nations and the poorer nations must figure 
this risk that are especially vulnerable to climate change, 
particularly concerning floods and droughts and other 
disasters. These nations, like many of those in sub-Saharan 
Africa and southeast Asia, are least responsible for the 
effects of global warming.
    What can the nations of the world like the United States, 
like the EU, do to assist some of the poorer countries, third-
world countries in attaining the technologies to compensate for 
the effects of global warming? Costa Rica probably is not 
necessarily in that category, but certainly southeast Asia and 
African nations are.
    Ms. Figueres. Yes, exactly. Southeast Asia, Africa, all the 
small island states and the low-lying, least-developed 
countries are all in that situation. This is, in fact, one of 
the major inequities of climate change, the fact that you say 
that all of these countries are major victims without having 
contributed to the problem in the past or in fact in the future 
in most of these countries.
    What the United States could do very concretely is 
contribute to the various instruments that are being developed. 
One of the issues in the Bali decision, one of the chapters, is 
adaptation; and there are very concrete measures there as to 
what all countries could do together in order to support 
particularly those countries that will need to adapt and that 
actually urgently need to adapt before they completely 
disappear like the small island developing states.
    In addition to contributions to the adaptation fund, there 
is finally some decision on the governments of the adaptation 
fund and that also would require a very clear leadership of the 
United States both in terms of financing as well as in terms of 
ascribing where funds would go to.
    Mr. Cleaver. Thank you. Mr. Meyer.
    Mr. Helme. Just commenting on that, Congressman, the thing 
to get clear here is the scale of the need. The World Bank 
estimates that we need 40 billion or 50 billion a year. OXFAM's 
estimate is 50 to $80 billion a year as a starting point to 
build capacity in these countries to deal with adaptation in 
the climate change. We are putting two orders of magnitude less 
a year on the table, hundreds of millions, not tens of 
billions.
    The other point I would make is that we have to do 
aggressive mitigation if we want to make an adaptation of 
infeasible. We did an analysis, for example, for our own State 
of California for Governor Davis and Governor Schwarzenegger, 
which showed if have you an aggressive mitigation path in 
California and the world you would lose about half of the 
Sierra snow pack by 2090. If you have business-as-usual growth, 
you would lose virtually all of the Sierra snow pack by the 
middle of the century; and that's the drinking water supply for 
California, that's the central valley irrigation. That's when 
Governor Davis and Governor Schwarzenegger got it. This is a 
core economic issue.
    So to have adaptation be feasible and even on the bounds of 
being affordable, you have to have the most aggressive 
mitigation scenario you can have. Even with that, we are going 
to have impacts that we are experiencing now that will get 
worse over the next 20 or 30 years. It is our moral 
responsibility to help these countries who had no role in 
creating this problem deal with the consequences of our past 
behavior.
    Ms. Figueres. Just to add a half a sentence to that, yes, 
it is the moral responsibility; and it is not just a moral 
responsibility. Actually, from the point of view of the United 
States, this is a long-term security issue for the United 
States. If you think that we are having a hard time now dealing 
with the immigration issue in the United States, that is 
nothing compared to the climate immigration waves that we will 
have unless we help these countries deal with the situation on 
their own territory.
    Mr. Clapp. Let me just add one more comment to that.
    The nation projected to be the most rapidly impacted in 
terms of loss of water supplies worldwide is actually not in 
Africa. It's Mexico. So the question of immigration--is a very 
serious one.
    In addition, this actually has implications for the 
targets--the worldwide reduction targets that were on the table 
in Bali. Those are actually projected, no matter how aggressive 
they may seem in our context, to provide us with only a 50 
percent chance of avoiding the worst impacts of climate 
changing. So the measures were not extremes.
    Mr. Cleaver. How much time do I have left?
    The Chairman. Five seconds.
    Mr. Cleaver. General Motors National Park--I mean----
    Mr. Ebell. No. No. I am sorry. I do not support the 
privatization of national parks, but in terms of managing our 
national forest they are and they have been for a long time a 
disaster, and it is because people who don't own things don't 
have the incentive to take care of them. They have the 
incentive to use them up.
    Therefore, I really think that the best thing we can do in 
terms of adopting the good kinds of forestry practices that Mr. 
Walden has been an advocate of would be to privatize the 
national forest. They wouldn't end up in General Motors' hands, 
but a lot of them would probably end up in Ted Turner's hands. 
So you can have either good or bad feelings. I don't know.
    Mr. Cleaver. Enron National Park.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from New York State, Mr. 
Hall.
    Mr. Hall. Thank you, Mr. Chairman, and thank you all for 
your testimony.
    I wanted to ask Mr. Meyer, regarding that worst-case 
scenario, which is Bali gives us a 50 percent chance if we 
manage to put this agreement together of avoiding--what is your 
organization projecting as likely sea level rise should we hit 
that worst-case scenario?
    Mr. Meyer. Well, it is not what my organization is 
projecting. It is what the International Government Panel on 
Climate Change is projecting, that has been certified by all 
governments in the world. If you read line by line, there are a 
couple of stories there: one, that the sea level rise we are 
going to see from thermal expansion and glaciers melting, that 
kind of thing--what is really not okay was the more rapid--our 
concern about disintegration of the Greenland ice sheet, the 
Antarctic ice sheet. Some renewed science is coming out about 
the flow rates there and the water going down and lubricating 
the flow of those glaciers.
    I would encourage you to have a hearing with some of the 
top experts on that in the world. Because there is a lot of 
concern in the science community that there may be more on the 
table there than was captured in the recent IPCC report, which 
had a close-off date of the end of 2005 for the peer-reviewed 
literature that it could take into consideration in its 
findings.
    This is of great concern to the scientists that study the 
ice sheet model and the ice sheet flows, and I encourage to you 
have a separate hearing just on that issue.
    Mr. Hall. Thank you, sir.
    I represent a district which is divided by the Hudson 
River, which is tidal, all the way to Troy past Albany; and of 
course any increase in sea level will also be an increase in 
river level, which will be then added to by tidal changes and 
storm waves and surge and so on. So it does effect us directly, 
including those communities like Beacon and Newburgh and 
Kingston and others that have newly refurbished their 
waterfronts with restaurants and stores and promenades, not to 
mention the commercial rail running up just above river level 
on the west bank of the Hudson and the Amtrak and MTA commuter 
line that runs carrying passengers up the east bank just above 
the water level of the Hudson currently.
    I am curious, given the fact that the executive branch 
tends to be the face of our Nation to many around the world, we 
in Congress are trying, as you know, to change energy policy; 
and we were just successful in getting a decent energy bill. It 
wasn't perfect, but then no legislation is, I suppose. We hope 
that this will show the world that we are serious or getting 
serious on this issue. What else would you recommend that 
Congress do to send this message to other countries around the 
world?
    Mr. Meyer. I think, as my colleague, Phil Clapp, said, 
participate in this process as part of the U.S. delegation, 
talk to the delegates about what is going on. I was amazed how 
very aware they are of the actions of this Congress. They knew 
when the energy bill was coming to the floor. I got e-mails the 
day after the committee reported out the Lieberman-Warner bill 
by an 11 to 8 vote from Japan, from Europe, from developing 
countries congratulating the United States for the work that 
committee had done.
    They follow our politics very closely because, as 
Christiana said, they realize they are in our hands. What we do 
is going to matter to their future. And I think participating 
in this process, going over to meet with them at these meetings 
or on your own, inviting them to come and testify or even meet 
with you here, the exchange of views between the rest of the 
world and civil society and the other branches of government in 
the United States is a key issue and I think will improve their 
confidence in going forward in the next 2 years in this 
process.
    Mr. Hall. I am just going to jump ahead, because my time is 
limited, as is all our time.
    I am happy to see one of the key topics in Bali is 
technology transfer and that helping developing countries to 
leapfrog over fossil-fuel-powered development is on the map. 
America has the technological know-how and resources to bring 
many of these technologies into play to help developing 
countries jump into a clean energy future.
    Perhaps Ms. Figueres and Mr. Helme could comment on what 
steps our government should be taking to aid the process of 
technology transfer, which would also make us an energy and 
technology exporter, as opposed to this fuel importer that we 
are mostly now.
    Mr. Helme. As I mentioned, I think there is a great deal of 
interest in sharing technology, particularly in these 
internationally competitive industries, and so I think the U.S. 
joining in this effort with Europe and others to provide 
assistance directly for innovation and linking it to developing 
countries, taking more aggressive targets--I mean, the theory 
from Bali is--as I showed you, they'll do more if there is 
assistance for technology, for sectorial activity in terms of 
these key investment sectors, for reductions from 
deforestation.
    So I think there is a big opportunity for us to put 
something on the table and draw forward. I think one of the 
ways to do it is to take a portion of the allowances--we are 
seeing this. Norway is doing it. Germany is doing it. But if 
you are taking allowances out of their system, auctioning those 
and using the money as incentive money to help developing 
countries move forward and get more reductions.
    Ms. Figueres. On the private sector side, the studies that 
have been done on financial flows that are necessary in order 
to address climate change show that more than half--in fact, 
above 60 percent of the financial flows will be coming from the 
private sector, as opposed to from the public sector.
    And so in that sense once a policy, both nationally and 
internationally, is in place, that will be enough to signal to 
the markets and to signal to the private sector that they can 
go ahead and make the investments; and those investments will 
then translate into the technology transfer the developing 
countries need.
    Mr. Hall. Thank you very much, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Let's do this. We will give each one of you 1 minute to 
summarize what you want us to remember. The energy bill is 
done. Bali is completed. Climate change, cap and auction and 
trade is now front and center in the United States House of 
Representatives and Senate next year. What do you want us to 
remember from this hearing as we go forward and begin this 
great project that is about to be undertaken?
    We will go in reverse order; and we will begin with you, 
Mr. Ebell.
    Mr. Ebell. Thank you, Mr. Chairman.
    I would urge you to keep--as you consider energy rationing 
policies, to keep in mind the energy needs not only of this 
country but of the world. And I would just make this particular 
observation that Mr. Hall said earlier. He encouraged people to 
adopt a polar bear. I think that is great.
    My colleague who is here today in the audience, William 
Yeatman, was a Peace Corps volunteer in Krygyzstan; and he 
will--if you want to contribute $50 to buy a ton of coal to 
keep a Kyrgyz family warm during this very cold winter in 
Krygyzstan, he will be happy to arrange that for you. Those are 
the real energy realities of the world. There are a lot of 
people who do not have enough energy to live the kinds of lives 
that we lead.
    And I would just think back to another great Member from 
Massachusetts, John Adams. When he was elected to the 
Continental Congress, he was a leading citizen of Boston, but 
he had to walk to Philadelphia. That is still the reality for a 
lot of the world.
    Thank you.
    The Chairman. Thank you, Mr. Ebell, Mr. Helme.
    Mr. Helme. Number one, I would say moving legislation at 
least as strong as Lieberman-Warner is the most important thing 
you could possibly do. We need that kind of a target.
    Secondly, on this competitiveness issue, I think we need to 
recognize as a place for incentives--we need to recognize that 
it is a myth that developing countries are going to steal 
market share based on carbon. China is already acting in 
cement, steel, carbon paper and so on; and they will be more 
efficient than we are by the time 2020 rolls around. So that is 
not the issue. The issue is working together to get the level 
playing field.
    Finally, on the EU, I want to submit for the record only 2 
countries of the 15 are not meeting their targets on their own. 
Only Spain and Italy are not. And I can give you chapter and 
verse about why the new EU program is very aggressive and the 
trading system works.
    The Chairman. Ms. Figueres.
    Ms. Figueres. Thank you, Mr. Chairman.
    Good news and bad news. The good news is that the new 
engagement of the developing countries actually opens up an 
unprecedented opportunity to rethink the structure, the logic 
and the potential of the future chapter of the climate change 
regime.
    The bad news is we need to do this overnight. We are on an 
incredible tight time frame. We cannot afford to fail on this 
opportunity that is laid before us over the next 2 years. If 
within 2 years at the end of 2009 we don't have a global 
agreement that aggressively moves us forward, we will not be 
able to face our children and grandchildren.
    The Chairman. Mr. Clapp.
    Mr. Clapp. Similar to what Ms. Figueres just said, this is 
our last agreement. This is our last shot. We have to have an 
international agreement that stops the growth of emissions and 
begins a pathway downward by 2020. If we don't get that 
agreement now, we will have missed the opportunity to get 
industry moving in that direction. So the catastrophic impacts 
will occur.
    The second thing is I would hope that many of you would 
have the political courage to not become part of the bash China 
movement. China has been rather aggressive in its energy 
policies domestically, as we have heard today, and it is a 
country very different from United States. China's coastal 
population in the cities has a per capita income of about 
$1,200 a year. Fifty-seven percent of its population still 
lives on less than $5 a year. Whereas the United States per 
capita income is $42,000 a year. Our standard--of what is still 
one of the poorest countries in the world is rather slim.
    The Chairman. Thank you, Mr. Clapp.
    Mr. Meyer.
    Mr. Meyer. Yes. Three points.
    I think the message from Bali is clear. It is time for the 
United States not to talk the talk but walk the walk. If we 
continue to put a price of exactly zero on carbon pollution of 
the atmosphere, we are not going to be taken serious in this 
process. The more you can do to move domestic cap and trade 
legislation through the process, the sooner the U.S. is going 
to get on board with the rest of the world, the better our 
chances will be in negotiation.
    Second, this is not just a risk, it is an opportunity. Keep 
your focus on the clean energy jobs that can be created, the 
new markets that can be created in helping the world solve this 
problems. I know Congressman Inslee has put forward some very 
bold ideas there. We need a revolution in this country. And 
there is an upside for dealing with this problem, not just a 
downside.
    The third is the cost of achieving the deep cuts that we 
are talking about by 2050 are not zero, they are not minimal 
they are affordable. They are somewhere in the range of half to 
1 percent of gross domestic output by the middle of the 
century. That is the equivalent of postponing tripling world 
output from 2050 to 2051. I think our descendants will say that 
is a pretty good deal.
    On the other side, the costs of doing something are far 
lower than the costs of doing nothing. There is no scenario 
feasible where we can do nothing and have nothing happen in 
return. Estimates vary on what the ratio is there, but there is 
very, very little disagreement that the costs of inaction are 
much greater than the costs of dealing with this problem.
    The Chairman. We thank you and each of the witnesses. This 
has been absolutely a fantastic panel. We thank each of you for 
giving us this preview of upcoming attractions in the United 
States Congress for the next year. I think global warming is 
about to be injected into the politics of the United States in 
a way that will match few other times for the next year, and 
with your help we have begun that today.
    Thank you so much.
    [Whereupon, at 1:57 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
